2020 IL App (1st) 172094-U
Order filed: January 17, 2020
NOTICE v.. ‘, Supplemental order upon denial of rehearing filed: February 14, 2020
The text of this order may
changed or ccrected
be
FIRST DISTRICT
prior to the time for fito-fl
a Petition for Rehearing or
Fifth Division
the disposition of the same*
No. 1-17-2094
NOTICE: This order was filed under Supreme Court Rule 23 and may not be cited as precedent
by any party except in the limited circumstances allowed under Rule 23(e)(1).

IN THE
APPELLATE COURT OF ILLINOIS
FIRST JUDICIAL DISTRICT

THE PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Appellee,

)
)
)

Appeal from the
Circuit Court of
Cook County.

)

v.

)

TRAVIS JOHNSON,

)
)
)

Defendant-Appellant.

)

No. 15 CR 6695
Honorable
Thaddeus L. Wilson,
Judge, presiding.

JUSTICE ROCHFORD delivered the judgment of the court.
Presiding Justice Hoffman and Justice Delort concurred in the judgment.
ORDER

11

Held: We affirm the denial of defendant’s petition for relief from judgement, where
defendant forfeited his as-applied constitutional challenge by raising it for the first
time on appeal.

^2

Defendant-appellant, Travis Johnson, appeals from the denial of his petition for relief from

judgment, filed pursuant to section 2-1401 of the Code of Civil Procedure. 735 ILCS 5/2-1401
(West 2016). For the following reasons, we affirm. l

1 In adherence with the requirements of Illinois Supreme Court Rule 352(a) (eff. July 1,2018), this
appeal has been resolved without oral argument upon the entry of a separate written order stating with
specificity why no substantial question is presented.

A

No. 1-17-2094
-v* t

113
114

I. BACKGROUND
In April 2015, defendant was charged , in an 11-count information. Count 1 of that

information alleged that defendant committed the offense of being an armed habitual criminal
(AHC), in that on or about March ! 5,2015, defendant was in possession of a firearm after having
previously been twice convicted of unlawful use of a weapon by a felon.
5

On February 29, 2016, defendant requested and received a conference pursuant to Illinois

Supreme Court Rule 402 (eff. July .1, 2012). Thereafter, defendant accepted the trial court’s
recommendation and pleaded guilty to the single AHC count. He was then sentenced to a term of
seven years’ imprisonment and three years of mandatory supervised release, and the State
dismissed the remaining counts of the information.
H6

On September 27, 2016, defendant filed a pro se petition for relief from judgment, filed

pursuant to section 2-1401 of the Code of Civil Procedure. 735 ILCS 5/2-1401 (West 2016).
Therein, defendant’s primary contention was that he received ineffective assistance of counsel.
However, the petition also included the following cursory argument:
“The armed habitual criminal statute *** is unconstitutional in its entirety because it
violates the Single-Subject-Rule,Provisions under article 4 Section 8(d) of the Illinois State
Constitution, (1970) and also the Proportionate Penalties Clause under article 1 section II,
of Illinois State Constitution (1970):’’

17.
i

In a written order entered on January 20,2017, the trial comt sua sponte denied defendant’s

section 2-1401 petition. While the trial court specifically addressed the merits of both defendant’s
claim of ineffective assistance of eounsel and his assertion that the AHC statute violated the single-

-2-

No. 1-17-2094
subject rule in the order, defendant’s proportionate penalties argument was not specifically
addressed.

• P

On September 5,2017, this court granted defendant’s motion to file a late notice of appeal.

1f9

II. ANALYSIS

U 10

On appeal, defendant’s sole argument is that the trial court improperly denied his section

2-1401 petition because the sentencing requirements of the AHC statute were disproportionately
applied as to him, in violation of the proportionate penalties clause of the Illinois constitution. Ill.
Const. 1970, art. I, § 11. We find that defendant has forfeited this as-applied constitutional
challenge by raising it for the first time on appeal. This issue presents a question of law that we
review de novo. People v. Thompson, 2015 IL l 18151, f 25.
U 11

In relevant part, the proportionate penalties clause of the Illinois constitution provides that

“[a]ll penalties shall be determined both according to the seriousness of the offense and with the
objective of restoring the offender to useful citizenship.” Ill. Const. 1970, art. I, § 11. Criminal
defendants may bring both facial and as-applied constitutional challenges. Thompson, 2015 IL
118151, If 36. However, as our supreme court has recognized:
“Although facial and as-applied constitutional challenges are both intended to address
constitutional infirmities, they are not interchangeable. [Gitatidn.] An as-applied challenge
'

requires a showing that the statute violates the constitution as it applies to the facts and
circumstances of the challenging party. [Citation:] In contrast, a facial challenge requires a
showing that the statute is unconstitutional, under any set of facts, i.e., the specific facts
related to the challenging party are irrelevant.
Because facial and as-applied constitutional challenges are distinct actions, it is not
unreasonable to treat the two types of challenges differently for purposes of section 2-1401.

‘

No. 1-17-2094
By definition, an as-applied constitutional challenge is dependent on the particular
circumstances and facts of the individual defendant or petitioner. Therefore, it is paramount
that the record be sufficiently developed in terms of those facts and circumstances for
purposes of appellate review.”-W. at H 36-37.
112

In light of these considerations, a defendant forfeits an as-applied challenge under the

proportionate penalties clause of the Illinois constitution where that challenge is raised for the first
time on appeal from an adverse ruling on a section 2-1401 petition. Id. at 39; People v. Harris,
2018 IL 121932, f 41 (“As we have emphasized, a reviewing court is not capable of making an
as-applied finding of unconstitutionality in the ‘factual vacuum’ created by the absence of an
evidentiary hearing and findings of fact by the trial court.”).
113

Here, it is evident that defendant only raised a facial challenge to the AHC statute under

the proportionate penalties clause below, where his section 2-1401 petition cursorily asserted that
the “armed habitual criminal statute *** is Unconstitutional in its entirety because it violates the
Proportionate Penalties Clause under article 1 section II, of Illinois State Constitution (1970).”
(Emphasis added.) It is also clear that no evidentiary hearing on this claim was held below, nor did
the trial court make any findings of fact with respect thereto. Nevertheless, on appeal defendant
concedes that he is raising an as-applied proportionate penalties clause challenge to the sentencing
requirements of the AHC statute. Pursuant to our supreme court’s decisions in Thompson and
Harris, we find that this argument has been forfeited due to defendant’s failure to first raise it
below.
114

III. CONCLUSION

115

For the foregoing reasons, we affirm the judgment of the circuit court.

116

Affirmed.
-4-

I

No. 1-17-2094

If 17'
18

SUPPLEMENTAL ORDER UPON DENIAL OF REHEARING
In a petition for rehearing filed February 4, 2020, defendant asserts that is was improper

for this court to conclude that his as-applied proportionate penalties challenge to the AHC statute
has been forfeited due to his failure to raise it in the trial court. Defendant contends this court’s
decision was incorrect because: (1) an as-applied challenge was actually raised below, (2) his asapplied challenge did not require any further factual development, and (3) refusing to consider the
merits of his as-applied challenge on appeal deprives him of his right to due process. For the
reasons stated in our original order, we reject defendant’s first two assertions and adhere to our
conclusion that defendant forfeited his as-applied challenge. However, because we have some
sympathy for defendant’s due process argument, we choose to further consider that argument—
and the merits of defendant’s as-applied challenge—in this supplemental order.
Tf 19

An individual's right to procedural due processes guaranteed by the United States and

Illinois Constitutions. See U.S. Const., amend. XIV, § 1; Ill. Const. 1970, art. I, § 2. This right
entitles an individual to “the opportunity to be heard at a meaningful time and in a meaningful
manner.” In re D. W., 214 Ill. 2d 289,-316 (2005). Furthermore, “where fundamental fairness so
requires, strict application of procedural bars may:be relaxed.” People v. Flores, 153 Ill. 2d 264,
274 (1992).
20

Here, defendant contends that application of a procedural bar to his as-applied challenge

denies him due process because it “ignores the reality of the Cook:County appellate system,” and
that due to delays in that appellate system defendant’s “ability to present his claim in another
vehicle has all but evaporated.”
H 21

In support of this argument, defendant notes: (1) a delay from the time his late notice of

appeal was allowed in September 2017 to when a complete appellate record was prepared and filed
-5-

No. 1-17-2094
in August 2018, (2) a delay from when his opening brief was filed in September 2018 to when the
State filed its response brief in December 2019, (3) that due to these delays, and our decision not
to address the merits of this appeal, the opportunity to file any additional collateral attacks on his
sentence under section 2-1401 or the Post-Conviction Hearing Act ,(720 ILCS 5/122—1 et seq.
(West 2018)) has all but expired, subject only to limited statutory exceptions, and (4) due to these
delays, he has “already served the bulk of his term-of-years sentence” and any possibility of a
future hearing or meaningful relief is rapidly fading.
^ 22

As an initial matter, we note that the initial delay in adjudicating this appeal resulted from

defendant’s own failure to file a timely notice of appeal in this case, and that defendant was only
able to present his arguments to this court because we granted his motion to file a late notice of
appeal eight months after the trial court denied his section 2-1401 motion. That aside, considering
the due process and fundamental fairness concerns discussed above (supra ^ 19) and the particular
facts of this case, we now choose to address the merits of defendant’s appeal.
23

The defendant raises an as-applied constitutional challenge, which requires a showing that

his sentence violates the constitution as it applies to the facts and circumstances of his case. People
v. Thompson, 2015 IL 118151,

36. An as-applied constitutional challenge presents a legal

question that we review de novo. People v. Johnson 2018 IL App (1st) 140725, 97.
H 24

The proportionate penalties clause of the Illinois Constitution of 1970 provides that “[a]ll

penalties shall be determined both according to the seriousness of the offense and with the
objective of restoring the. offender to-useful citizenship.” Ill. Const. 1970, art. I, § 11. “A
proportionality challenge contends that the penalty in question was not determined according to
the seriousness of the offense.” People v. Sharpe, 216 Ill. 2d 481, 487 (2005)
f 25

To evaluate this issue, defendant would have us apply a test first espoused by the United
-6-

No. 1-17-2094
States supreme court in Solem v. Helm, 463 U.S. 277, 292 (1983), with respect to proportionality
analysis under the Eighth Amendment of the United States constitution (U.S. Const., amend. VIII).
There, the court stated that “a court's proportionality analysis under the Eighth Amendment should
be guided by objective criteria, including (i) the gravity of the offense and the harshness of the
penalty; (ii) the sentences imposed on other criminals in the same jurisdiction; and (iii) the
sentences imposed for commission of the same crime in other jurisdictions.” Solem, 463 U.S. at
292. For the following reasons, we reject defendant’s invitation to apply the Solem test here.
K 26

First, the nature of and continuing relevance of the Solem test itself has been the subject of

much debate over the ensuing years, and its exact status remains somewhat disputed. See People
v. Fernandez, 2014 IL App (1st) 120508, ^ 55-62; People v. Hindson, 301 Ill. App. 3d 466,477
(1998).
f 27

Second, the Solem test is explicitly applicable to “a court’s proportionality analysis under

the Eighth Amendment.” Solem, 463 U.S. at 292. Here, defendant specifically asserts an as-applied
proportionality challenge under the proportionate penalties clause of the Illinois Constitution. As
our supreme court has recognized, “[although a relationship may exist between the first clause of
article I, section 11, and the eighth amendment, that relationship is not entirely clear. What is clear
is that the limitation on penalties set forth in the second clause of article I, section 11, which focuses
on the objective of rehabilitation, went beyond the framers' understanding of the eighth amendment
and is not synonymous with that provision.” People’v. Clemons, 2012 IL 107821,^ 40.
28

As such, our supreme court has long utilized'its own test to be applied in a court’s

proportionality analysis under the proportionate penalties clause of the Illinois constitution.
Traditionally, our supreme court recognized three distinct ways in which such a challenge may be
asserted, specifically acknowledging:
-7-

No. 1-17-2094
“First, a penalty violates the proportionate penalties clause if it is cruel, degrading, or so
wholly disproportionate to the offense committed as to shock the moral sense of the
community. [Citations.] Second, a penalty violates the proportionate penalties clause
where similar offenses are compared and conduct that creates a less serious threat to the
public health and safety is punished more severely. [Citations.] Finally, the proportionate
penalties clause is violated Where offenses with identical elements are given different
sentences.” People v. Moss, 206 Ill. 2d 503, 522 (2003);
29

However, our supreme court has specifically abandoned the second method, the “cross­

comparison analysis,” because it had proven to be “problematic and unworkable.” People v.
Sharpe, 216 Ill. 2d 481, 519 (2005). More recently, our supreme court noted the first and third
methods cited in the above paragraph and reiterated that Only these “two bases remain for mounting
a proportionate penalties challenge.”People v. Rizzo, 2016IL 118599, f 28. Indeed, in Rizzo, 2016
IL 118599, H 42, our supreme court rejected any attempt to compare offenses containing different
elements and penalties while discussing the first method discussed above, concluding that to do so
“would effectively resurrectf] the cross-comparison analysis under the guise of an inquiry into
what is cruel and degrading.”
30

Obviously, applying the Solem test here would similarly and improperly resurrect the

Cross-Comparison analysis our supreme court has rejected, as the second objective criteria in that
test explicitly asks the court to examine the sentence imposed for particular crimes'in Illinois with
those imposed for different crimes within-the-sarhe jurisdiction. Solem, 463 U.S. at 291-922.
Furthermore, we are not aware of a single instance where our supreme court has looked to the
sentences imposed for the same crime in other jurisdictions for purposes of conducting a
proportionality analysis under the proportionate penalties clause of the Illinois constitution.
-8-

No, 1-17-2094
If 31 (i Considering our supreme court’s decisions in Sharpe and Rizzo, we must therefore reject
. defendant’s request that we apply the Solem test to our proportionality analysis under the
proportionate penalties clause of the Illinois constitution. Moreover, because defendant has made
no attempt to apply the relevant Illinois test to this issue on appeal, we necessarily conclude that
he has failed to establish a violation of the proportionate penalties clause of the Illinois constitution,
f 32

We recognize that defendant has pointed to a,number of Illinois appellate court decisions

in which the Solem test was either applied or referenced in the context of a proportionality analysis
under the proportionate penalties clause of the Illinois, constitution. However, we do not find these
instances persuasive.
If 33

First, defendant cites to two decisions from the Third District of the appellate court, both

of which were subsequently vacated by our supreme court on other grounds. People v. Tetter, 2018
IL App (3d) 150243, ^f 73, appeal denied, vacated, 116 N.E.3d 918.(111.2019); People v. Kochevar,
2018 IL App (3d) 140660, If 64, appeal denied, vacated, 116 N.E.3d 923 (Ill. 2019). In each case,
upon remand from our supreme court, the appellate' court found that it never had jurisdiction to
consider the as-applied challenge in the first instance. People v. Tetter, 2019 IL App (3d) 150243B, ^f 38; People v. Kochevar, 2020 IL App (3d) 140660-B, ^f 34. It is axiomatic that we are not
bound by an opinion of another appellate district. People v. Knapp, 2019 IL App (2d) 160162, ^f
60. Perhaps more importantly, an appellate court decision vacated by our supreme court carries no
precedential value. People v. Kelley, 2019 IL App (4th) 160598, f 97, For these reasons, we decline
to follow either the Tetter or the Kochevar decision.

...

Tf 34 ; For similar reasons, we do not find persuasive defendant’s citation to People v. Cetwinski,
2018 IL App (3d) 160174. First, it is another Third District opinion that we are not bound to follow.
Second, the court in that case did not conduct its own analysis of this issue, but simply adopted the
-9-

«■

No. 1-17-2094
analysis in the original Tetter or Kochevar decisions. Id. 57. Third, the decision in Cetwinski was
filed prior to our supreme court’s decision to vacate the original,Tetter or Kochevar decisions.
Tf 35

Finally, defendant cites to a decision from this court, People v. Fernandez, 2014 IL App

(1st) 120508,

55—66, in which this court looked to Solem for guidance in conducting a

proportionality analysis under the proportionate penalties clause of the Illinois constitution.
However, the Fernandez decision did not explicitly apply all three criteria discussed in Solem and
acknowledged that Solem had been the subject of important discussion and modification in
subsequent decisions. Id. Moreover, the Fernandez decision was filed prior to our supreme court’s
decision in Rizzo, 2016 IL 118599, f 28, which as noted above reiterated that our supreme court
has clearly delineated its own test for conducting a proportionality analysis under the proportionate
penalties clause of the Illinois constitution.
U 36

For the foregoing reasons, defendant’s petition for rehearing is denied.

-10-

*■

*

THE COURT:

1
2

Travis Johnson.

’petition is denied.

3

Defendant 2-1401

State has waived any defects in

service.

4 .■

MS. MCMAHON:

.

THE COURT:

5
6

Yeah.

Clerk to notify the defendant.

Off

call.

7

(Whereupon this was all

8

the proceedings at the

9

.above-entitled cause.)

. ,

10
11
12
13
14
15
16
17
18
19
20
21
22

.

23
24

L-2

3

R 48

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

May 27, 2020
In re:

People State of Illinois, respondent, v. Travis Johnson, petitioner.
Leave to appeal, Appellate Court, First District.

125813
The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 07/01/2020.

Very truly yours,

(2m>
Clerk of the Supreme Court

C

